<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 3:00 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. James Lankford (chairman) 
presiding.
    Present: Senators Lankford, Kennedy, Murphy, and Van 
Hollen.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. CARLA D. HAYDEN, LIBRARIAN OF 
            CONGRESS


              opening statement of senator james lankford


    Senator Lankford. Good afternoon.
    I would like to welcome everyone to the first of our fiscal 
year 2018 budget hearings for the Legislative Branch 
Appropriations Subcommittee.
    Today, we have with us the Honorable Carla Hayden, 
Librarian of Congress, and the Honorable Stephen Ayers, 
Architect of the Capitol. I appreciate the willingness of both 
of you to appear and your preparation leading up to this.
    I would like to offer a special welcome to Dr. Hayden, as 
this is her first hearing before this subcommittee. Confirmed 
as the 14th Librarian of Congress, she is the first woman 
Librarian of Congress and first African-American Librarian of 
Congress. So glad that you are here; we will try to make this 
rough on you to make it memorable.
    She also has taken the helm of the Library at a critical 
period in its modernization, a lot of things that have been 
moving for a while and you have a big responsibility there in 
the coming years.
    Before we dive into the details, I would like to frame the 
fiscal situation we find ourselves in this year.
    We are yet again in a situation where flat budgets are more 
than likely and that may even be a best case scenario. We will 
do our part to make responsible decisions on how to allocate 
our limited funds, but also understand there are serious 
priorities that also have to be accomplished for the Nation.
    It is my hope that during this Congress, we can return to 
debating and passing individual appropriation bills instead of 
governing from one Continuing Resolution to another. These 
stand alone bills better reflect the thoughtful work of our 
subcommittee, the valuable insights from every agency, and 
including those we are about to receive today.
    For fiscal year 2018, the total budget request for the 
Library is $687.7 million, an increase of $55.8 million above 
the fiscal year 2017. The request includes an increase for 
enterprise IT modernization across the Library, and an 
additional 42 FTEs to support that effort, as well as an 
increase in the staff levels for the Copyright Office and the 
Congressional Research Service.
    The Architect of the Capitol's budget request for fiscal 
year 2018 totals $773.1 million, an increase of $155.2 million 
above fiscal year 2017 enacted level, including nine additional 
FTEs. Of this request, $350 million is for capital projects, 
and given the deferred maintenance backlog of $1.5 billion, I 
recognize you have had to make difficult choices in regard to 
what was included in your request.
    I must reiterate we will have to make very difficult 
choices in light of the budget constraints. In this budget 
environment, we will not be able to accommodate every increase, 
but it will be important to hear what you see as most important 
and what the greatest need for investment is.
    It is worth noting in previous years, the Library of 
Congress and the Architect of the Capitol have requested 
increases that the subcommittee was not able to provide in the 
past, and yet each agency has been able to maintain services 
and complete needed projects and modernization efforts.
    The Library received only $42 million of the $101 million 
increase it requested in the past 2 years, and was able to 
invest in IT security, plan for an agency-wide IT 
modernization, and respond to 60,000 congressional requests 
that were made to CRS. I think 55,000 of those were by Senator 
Murphy. No? Probably not; probably more from me.
    Similarly, the Architect received only $17 million of the 
requested $142 million increase over the last 2 years, but 
within this budget the dome and rotunda restoration was 
completed, work continued on the Capitol exterior stone and 
metal preservation, and the set up for the 2017 Inauguration 
was flawlessly executed.
    I mention this to remind you, but also to commend you. You 
have done a tremendous amount of good with very limited 
funding, and we appreciate that.
    Before moving on, I would like to offer my condolences for 
the loss of a member of the Architect of the Capitol's team, 
Matthew McClanahan, a pipefitter for the Maintenance Division 
for the Capitol grounds. I know this loss has been a tremendous 
loss for the Architect of the Capitol's family, the entire 
Capitol family, and most especially his family. We continue to 
pray for Matthew and his family in the days ahead and for you.
    I would like to now turn to my ranking member, Senator 
Murphy, for opening remarks he would like to make.


                statement of senator christopher murphy


    Senator Murphy. Thank you very much, Mr. Chairman.
    It is a pleasure to be here, my first hearing as ranking 
member. I look forward to doing good work with you. I ask the 
witnesses to take it easy on me given that it is my first time 
around in this role.
    I want to associate myself with virtually everything that 
the chairman said. His note of commendation is important. Often 
unheralded, the work that you and your staffs do, adds to the 
value that we hope that we can provide to our constituents and 
that you individually provide to our constituents. You have 
done so with severely trimmed sails. We hope to be able to work 
with you to address the challenges that are continually 
presented to you.
    My only editorial comment is that I do understand that we 
have to live within the budget constraints that exist, but I 
would hope that as now leaders of the appropriations 
subcommittee, we can talk about bringing some sanity to this 
process.
    I agree. I would like to move on regular order, but without 
adjustments to the fiscal year 2018 budget caps, our domestic 
programs face nearly $16 billion in cuts compared to 2017. Even 
worse, the President has proposed to add on top of that $54 
billion in cuts to domestic spending.
    Contrary to popular belief, not every investment that the 
Federal Government makes is wasted. There are some incredibly 
worthwhile endeavors that we engage in to help our constituents 
and, of course, the work that you do is at the top of that 
list.
    I know we have a much bigger conversation about the budget 
picture going forward, but if the President's budget moves 
forward, if the unadjusted 2018 budget caps move forward, then 
we are looking at just absolutely crisis shortfalls for some 
really important programming. You are certainly on that list.
    Lastly, let me just add my words of sympathy for the loss 
of Mr. McClanahan, his wife Lauren, his two children that he 
leaves behind, Eve and Matthew. We are just so grateful for his 
work and we are going to remember him as someone who helped 
nurture and preserve the Capitol grounds.
    With that, I am really eager to get to the work here and 
eager to hear your testimony.
    Senator Lankford. With that, I would like to ask our 
witnesses to give their opening statements. I will begin, as we 
should, with ladies first.
    Dr. Hayden, you will have approximately 5 minutes, though 
we should not run a clock. We will have open conversation in 
our time today. If you go a little bit over that, I think we 
will all be fine, but we are honored to be able to receive your 
statement.


               summary statement of hon. carla d. hayden


    Dr. Hayden. Thank you, Mr. Chairman and Ranking Member 
Murphy.
    This opportunity to provide testimony in support of the 
Library's fiscal year 2018 budget, my first as Librarian of 
Congress, and I look forward to working with all of you.
    Nearly 9 months into my tenure, I continue to be inspired 
by the breadth and depth of the Library's collections and the 
expertise and commitment to public service of its staff. Today, 
the Library holds more than 164 million items in all formats 
and languages, and has the world's largest collection of legal 
materials, films, and sound recordings.
    Last year, the Library welcomed nearly 1.8 million in-
person visitors and there were 93 million visits to the 
website. More than 400,000 claims were registered by the U.S. 
Copyright Office and more than 10.5 million preservation 
actions on the collections were undertaken. The Library 
responded to over 1 million reference requests from Congress, 
the public, and other Federal agencies.
    I would like to express my sincere gratitude for the 
support of this subcommittee and, indeed, the entire Congress 
provides for the Library. And in particular, we all appreciate 
your support for fiscal year 2017 funding bill for several high 
priority needs.
    I come before you today to discuss the Library's funding 
request for fiscal year 2018 during a time, as you have 
acknowledged, of challenge and opportunity as we position the 
Library for the future.
    I am committed to a modernized Library that will make our 
extraordinary resources, collections, and programs available 
online, enhancing opportunities for those who could not come to 
see us in person.
    The fiscal year 2018 budget request has three priorities, 
Information Technology (IT) and IT modernization, unique 
staffing requirements, and collection storage and preservation.
    Our IT request builds on the progress made by the fiscal 
year 2017 appropriation with three critical modernization 
initiatives: enterprise investment in IT for the entire 
Library, copyright IT modernization, and Congressional Research 
Service, CRS, systems modernization.
    First, the Library's enterprise-wide IT modernization 
request will upgrade the underlying network infrastructure 
across the enterprise to state of the industry standards. This 
effort will provide the infrastructure backbone to support the 
modernization of all business applications including a modern 
copyright registration system.
    The Copyright IT modernization request will focus on 
mission systems and seek support for the next generation 
registration system, as well as resources for maintaining the 
stability of the Copyright's legacy systems.
    Finally, CRS is seeking a 5-year investment in the 
Integrated Research and Information System, IRIS, to modernize 
mission-specific information systems that will reduce the time 
to research, analyze, create, and deliver CRS products to 
Congress with increased security and confidentiality.
    Our staffing request focuses on three key areas: copyright, 
CRS, and IT. Our third priority, storage and preservation space 
for our collections continues to be a severe need. Storage 
Module 5, that you will hear more about in a minute, is on 
target for completion in calendar 2017. As you might realize, 
our storage needs for collections and preservation will 
continue for a number of years.
    Our 2018 budget request reflects the Library's most 
immediate priority of serving Congress, expanding access to 
historical documents and improving service in all of the 
mission areas. The request for fiscal year 2018 is for 
approximately $738 million, which represents a 7.8 percent 
increase over the Library's fiscal year 2017 budget. Of this, 
5.9 percent accounts for mandatory pay and price level 
increases, and the balance of the increase represents critical 
investment in information technology for the Library, Copyright 
Office, and Congressional Research Service.
    In closing, modernized IT, strengthened infrastructure, and 
funding for staff with unique skills and expertise are all 
critical elements in positioning the Library for the future.
    With your support, our service to the Congress and the 
American people promises to be the best is has ever been as we 
try to reach millions of new users in the years to come.
    I welcome your questions.
    [The statements follow:]
               Prepared Statement of Hon. Carla D. Hayden
    Mister Chairman, Ranking Member Murphy, and Members of the 
subcommittee:

    Thank you for the opportunity to provide testimony in support of 
the Library's fiscal year 2018 budget, my first as Librarian of 
Congress. I look forward to working with you.
    Nearly 9 months into my tenure, I am inspired by the breadth and 
depth of the Library's collections and the expertise and commitment to 
public service of its staff. Today, the Library holds more than 164 
million items in all formats and languages and has the world's largest 
collections of legal materials, films, and sound recordings. Last year 
the Library welcomed nearly 1.8 million in-person visitors and there 
were 93 million visits to our website. More than 414 thousand claims 
were registered by the U.S. Copyright Office. More than 10.5 million 
preservation actions on the collections were undertaken and the Library 
responded to over 1 million reference requests from the Congress, the 
public, and other Federal agencies.
    I would like to express my sincere gratitude for the support that 
this committee and the entire Congress provide for the Library. In 
particular, I appreciate your support in the fiscal year 2017 funding 
bill for several high-priority needs. As the Library continues to 
implement recommendations by the Government Accountability Office to 
strengthen our information technology infrastructure, funding for the 
3-year migration of our data center to a new, safe and secure Tier III 
primary computing facility, away from Capitol Hill, is a vital 
component of IT modernization. The support you provided for protecting 
the Library against cyber security threats through two-factor 
authentication will directly address this shared priority. Improved 
security will protect our IT network and resources, including the 
security and confidentiality of Congressional Research Service data.
    I particularly appreciate the additional funding and authorization 
for Copyright Office modernization, one of my management priorities. 
Also, your support for digital collections management staffing, new Law 
Library compact shelving, and additional funding for CRS will 
positively impact the Library's highest priority needs.
    I come before you today to discuss the Library's funding request 
for fiscal year 2018 during a time of challenge and opportunity as we 
position the Library for the future. I am committed to a modernized 
Library that will make our extraordinary resources, collections and 
programs available online, enhancing opportunities for those who cannot 
come to see us in person. We will continue to raise gift and trust 
funds for special acquisitions that complement the collections as well 
as to hold programs that would not be possible through appropriated 
funding. For example, in the past year gift funds allowed us to acquire 
a rare Philadelphia census directory from 1811, the first city 
directory to contain a separate listing of the city's African-American 
residents.
    Our budget request reflects the Library's most immediate priorities 
of serving the Congress, expanding access to historical documents, 
improving service in all mission areas and being good stewards of the 
national collection. As an example of increased access and better 
service, we are livestreaming Library programming for children and 
adults to bring the Library's collections to people who cannot come to 
Washington, DC.
    In the months since I took office, to better support these 
priorities, we have taken positive steps to strengthen management and 
oversight within existing resources. In November, I addressed the need 
to maximize value from the Library's investment in technology by 
directing that all technology activities be centrally coordinated 
through the Office of the Chief Information Officer (OCIO) and approved 
by the Chief Information Officer, who now reports directly to me. IT 
centralization is well underway. IT investment planning is now 
coordinated Library-wide.
    The Director of the Office of Strategic Planning and Performance 
Management also reports directly to the Librarian. This alignment 
strengthens strategic, directional and operational planning, as well as 
performance assessment, internal controls, and the identification and 
mitigation of high-risk areas.
    I am confident that these adjustments have put us on the right 
management path internally to position the Library for the future. Now, 
however, I ask for your assistance for the key initiatives in our 
request that will continue our progress in modernization and staffing.
    The Library of Congress fiscal year 2018 budget request is for 
approximately $738 million, which represents a 7.8 percent increase 
over the Library's fiscal year 2017 budget. Of this, 5.9 percent 
accounts for mandatory pay and price level increases ($43.3 million). 
The balance of the increase represents critical investments in 
information technology for the Library, the Copyright Office, and the 
Congressional Research Service, as well as funding to acquire new 
workforce expertise in key areas.
    The fiscal year 2018 budget request advances the fiscal year 2017 
IT modernization progress with three critical modernization 
initiatives: enterprise investment in IT for the Library; Copyright IT 
modernization; and CRS systems modernization. First, the Library's 
Enterprise IT Modernization request will upgrade the underlying network 
infrastructure across the enterprise to state-of-the-industry 
standards. This effort will provide the infrastructure backbone to 
support the modernization of all business applications, including a 
modern Copyright registration system. Next, the Copyright IT 
modernization request will focus on its mission systems and seeks 
support requirements analysis for the next generation registration 
system as well as resources for maintaining the stability of Copyrights 
legacy systems. Finally, CRS is seeking a 5-year investment in the 
Integrated Research and Information System (IRIS) to modernize mission-
specific information systems that will reduce the time to research, 
analyze, create, and deliver CRS products to Congress with increased 
security and confidentiality of congressional data.
    A highly trained workforce with the unique skills and expertise to 
take the Library into the future is critical to meeting the needs of 
the Congress and the American people. We have an aging staff. For CRS 
in particular, bringing in junior analysts is important to strengthen 
capacity in high congressional demand areas such as defense policy, 
health and education policy, and the Federal budget process. The junior 
analyst staffing model is an innovative, cost-effective concept that 
allows CRS to be more nimble and flexible with staff by providing 
analysis on emerging issues, while reducing staff capacity in areas 
that are no longer in demand. It also provides the junior analysts with 
the opportunity to build expertise by working with top senior analysts.
    The Library is also committed to a fully functional, well-staffed, 
and modern Copyright Office. Funding is also requested to establish a 
more robust Copyright registration staff as well as public information 
staff to address backlogs and improve the Copyright user experience. 
Enhanced public information staffing will improve the Copyright user 
experience and allow the Public Information Office to permanently 
expand hours of service to better serve the large copyright stakeholder 
community on the West Coast.
    Storage space for our collections continues to be a high priority. 
Storage module 5 is on target for completion in calendar 2017, thanks 
to congressional support. Although not in the Library's budget request, 
the Architect of the Capitol is requesting $45 million in its fiscal 
year 2018 budget to build a double preservation storage module 6, 
needed to keep up with the volume and preservation of the physical 
collections. The design for preservation storage module 6 was funded in 
2016. As stewards of the precious collections stored at Ft. Meade, 
resources that belong to current and future generations, we are deeply 
grateful for this congressional support.
    Another less obvious improvement to our infrastructure is 
restoration of our custodial services through an addition to base 
funding. Custodial services have degraded significantly since 2011 as 
the result of escalating costs. A return to 2011/2012 acceptable 
quality levels would address health and sanitation concerns, and also 
prevent erosion of the physical plant. All of this is important not 
only for the staff, but for visitors to the Library.
    In closing, modernized IT, strengthened infrastructure, and funding 
for staff with unique skills and expertise are all critical elements in 
positioning the Library for the future. With your support, our service 
to the Congress and the American people promises to be the best it has 
ever been, as we reach millions of new users in the years to come.
    Mister Chairman, Ranking Member Murphy, and Members of the 
subcommittee, the Library is both America's first Federal cultural 
institution and part of the innovative infrastructure of America. I 
thank you again for supporting the Library of Congress and for your 
consideration of our fiscal year 2018 request.
                                 ______
                                 
   Prepared Statement of Karyn Temple Claggett, Acting United States 
                         Register of Copyrights
    Mister Chairman, Ranking Member Murphy, and Members of the 
subcommittee:

    Thank you for the opportunity to submit the United States Copyright 
Office's fiscal year 2018 budget request.
    As this Committee has recognized, technology continues to transform 
and expand the role of copyright and the Copyright Office in the 
Nation's economy.\1\ According to some statistics, in 2015 core 
copyright industries added more than $1.2 trillion to the U.S. gross 
domestic product, accounting for 6.88 percent of the U.S. economy.\2\ 
These industries employed over 5.5 million workers, accounting for 3.87 
percent of the entire U.S. workforce.\3\ Against this backdrop, the 
Office maintains key aspects of the Nation's copyright system, which 
benefits content creators, technology companies, and the public at 
large.
---------------------------------------------------------------------------
    \1\ ``The Committee recognizes that the digital revolution has 
transformed the copyright marketplace and, as a result, the role of the 
Copyright Office in our economy.'' S. Rep. No. 114-258, at 39 (2017).
    \2\ Stephen E. Siwek, Copyright Industries in the U.S. Economy: The 
2016 Report 2 (2016) (prepared for the International Intellectual 
Property Alliance).
    \3\ Id. Additionally, the Department of Commerce's Internet Policy 
Task Force has explained the importance of the copyright industries, 
noting in 2013 that ``[t]he industries that rely on copyright law are 
today an integral part of our economy, accounting for 5.1 million U.S. 
jobs in 2010--a figure that has grown dramatically over the past two 
decades. In that same year, these industries contributed 4.4 percent of 
U.S. GDP, or approximately $641 billion. And the demand for content 
produced by our creators contributes to the development of the broader 
Internet economy, spurring the creation and adoption of innovative 
distribution technologies.'' Department of Commerce Internet Policy 
Task Force, Copyright Policy, Creativity, and Innovation in the Digital 
Economy 5 (2013) (citations omitted).
---------------------------------------------------------------------------
    The Copyright Office manages the Nation's copyright registration 
and recordation systems, each year reviewing hundreds of thousands of 
claims for copyright and thousands of copyright transfer statements. 
The Office also administers statutory licensing royalties and 
distributes hundreds of millions of dollars annually in royalty 
payments. Office staff process assorted public inquiries on nearly 
every aspect of copyright law; search and provide certified copies of 
Office records; transfer hundreds of thousands of new materials to the 
Library of Congress; and provide expert legal and policy advice to 
Federal agencies, courts, and Congress.
    In fiscal year 2016 alone, the Copyright Office registered 
approximately 414,000 claims to copyright and recorded almost 11,000 
ownership-related documents pertaining to nearly 162,000 copyrighted 
works. The Office collected over $242 million in royalty payments from 
statutory licenses and provided certified copies of Office records 
generating over $600,000 in fees. In addition, the Office answered over 
37,000 electronic filing inquiries; 6,500 phone calls; 6,000 email 
inquiries per month; and assisted nearly 2,000 in-person visitors.
    The Copyright Office also engaged in important and complex legal 
and policy issues in furtherance of the Copyright Act. Consistent with 
its statutory mandate, the Office advised Congress on a host of 
informal legislative inquiries and responded to several formal 
congressional requests to study a number of copyright issues. Office 
attorneys also assisted the Department of Justice on various copyright-
related matters, including briefing in the Supreme Court. For example, 
in fiscal year 2016, the Office participated in briefing the Supreme 
Court in Star Athletica LLC v. Varsity Brands, Inc. and Kirtsaeng v. 
John Wiley & Sons, Inc. In the past year and a half, the Office 
published two comprehensive policy reports, The Making Available Right 
in the United States in February 2016, and Software-Enabled Consumer 
Products in December 2016. The Office also continued ongoing studies on 
the impact and effectiveness of the safe harbor provisions of section 
512 of Title 17 and on the anti-circumvention provisions of section 
1201 of Title 17. The Office held a series of public hearings in San 
Francisco, New York, and Washington DC, and analyzed nearly 100,000 
public comments submitted in connection with these studies.
    In fiscal year 2017, the Copyright Office has issued multiple 
publications in the Federal Register. To date, the Office has issued 
seven final rules, and six proposed rules are pending. For example, the 
Office published Notices of Proposed Rulemaking on technical 
clarifications to regulations under Title 17, as well as proposals on 
supplementary registration and group registration practices. It also 
issued Final Rules regarding the designation of agents to receive 
notifications of claimed infringement and removal of personally 
identifying information from the Office's records, and a Notice of 
Inquiry initiating a study on the moral rights of attribution and 
integrity. In anticipation of modernization, the Office also has 
proposed omnibus revisions to current recordation regulations governing 
transfers and terminations of copyright ownership. These rules 
contemplate the development of an online recordation system through 
which remitters can submit materials electronically, which will replace 
the current paper-based system. The Office further anticipates an 
overhaul or update of registration and licensing regulations to 
accommodate modernization, adjust to technological enhancements, and 
align with developing business practices. In addition, the Office 
preliminarily has identified the need to review all regulations, many 
of which date back to 1978.
    Finally, the Copyright Office engaged in numerous international 
initiatives, including serving on intergovernmental delegations to the 
World Intellectual Property Organization (WIPO) and supporting 
executive branch agencies in analyzing copyright legislation in other 
countries. For example, the Office provided the interagency with 
copyright-related advice on dozens of World Trade Organization (WTO) 
trade policy reviews and two country accessions to the WTO. In 
partnership with WIPO, in June 2016 the Office hosted its biennial 
International Copyright Institute training program for senior copyright 
officials from 22 developing countries.
          funding and overall fiscal year 2018 budget request
    To conduct its statutorily mandated work, the Copyright Office 
requests a budget that will enable it to continue to provide high-
quality services to the public, Congress, and other Federal agencies. 
This request specifically seeks funding to continue the Office's IT 
modernization efforts, which the Committee has previously supported, 
within the context of the Library's broader IT centralization model. It 
also focuses on targeted staffing needs to maintain and improve 
efficiencies in registration, public records, public information 
services, and legal review. With these funds, the Office can better 
serve the American public at large and continue to support the Nation's 
copyright system.
    The Copyright Office administers funds from three separate budgets 
or program areas: (1) Basic Budget, which funds most of the Office's 
core operations, including the majority of payroll-related expenses. 
Historically the basic budget has been provided through a combination 
of appropriated dollars and authority to spend fee revenue, with fees 
constituting a majority of this funding (generally in the range of 58 
percent to 67 percent); (2) Licensing Budget, which is derived 
completely from licensing royalty collections otherwise payable to 
copyright owners and filing fees paid by cable and satellite licensees 
pursuant to statutory licenses administered by the Office; and (3) 
Copyright Royalty Judges Budget, which funds the Copyright Royalty 
Board (``CRB'')--although the CRB is not a part of the Office, the 
Office administers its budget on behalf of the Library of Congress.
    For fiscal year 2018, the Copyright Office requests a combined 
total of $72.0 million in funding and 488 FTEs, of which $43.6 million 
would be funded through authority to expend fees collected in fiscal 
year 2018 and in prior years.
    Specifically, the Office's requests are:
  --Basic Budget: $64.7 million and the authority to have 458 FTEs. 
        $6.1 million and 22 FTEs of this request are for new 
        initiatives, including funding important IT stabilization and 
        modernization efforts, and staffing to address ongoing 
        operations described further below. As in past years, the 
        Office asks that Congress provide budget authority through a 
        combination of annual appropriations and authority to offset 
        fee revenue. The Office requests that $35.2 million be provided 
        through authority to expend fiscal year 2018 fee revenue and 
        that $2.3 million come through use of unobligated revenue 
        balances of prior years. The Office requests that the remaining 
        $27.2 million come from appropriated dollars.

        Initiatives to be funded through this request include:

    --$3.6 million devoted to Office IT modernization, which would be 
            covered completely by fees collected in fiscal year 2018 or 
            prior fiscal years; and
    --$2.5 million devoted to staffing for the Office to conduct 
            registration activities; legal analysis; and administer the 
            Office's public records, repositories, and public 
            information functions.
  --Licensing Division Budget: $5.7 million, all of which is funded via 
        fees and royalties. The requested increase includes mandatory 
        pay-related and price level increases of $.149 million.
  --Copyright Royalty Judges Budget: $1.67 million in total, with $.08 
        million to support mandatory pay-related and price level 
        increases. $.41 million (for non-personnel-related expenses) of 
        the total request is offset by royalties. The remainder, $1.26 
        million in appropriated dollars, is to cover the personnel-
        related expenses of the Judges and their staff.
                        focus of funding request
    The Copyright Office's funding request focuses on two key areas: 
(1) increased funding for IT modernization efforts; and (2) staffing 
for the Office's registration, public information, and legal services.
Copyright IT Modernization
    The Copyright Office has dedicated itself to modernizing its 
systems and its administration of the Nation's copyright laws. Starting 
in 2011, the Office began a series of comprehensive and targeted 
efforts to understand and analyze its IT needs. The Office issued its 
Priorities and Special Projects of the United States Copyright Office 
(October 2011-October 2013), which highlighted the need for 
technological upgrades. Following that kick-off, the Office undertook a 
comprehensive study of its technological capabilities and needs, which 
included extensive stakeholder feedback. The resultant 2015 Report and 
Recommendations of the Technical Upgrades Special Project Team 
acknowledged challenges with the current user experience and access to 
the public record, and offered recommendations for improvement. Then, 
based on congressional direction, the Office followed the initial 
report with a more detailed plan, 2016's Provisional Information 
Technology Modernization Plan and Cost Analysis (``Provisional IT 
Plan''), which provided concrete ideas about how to move the Office 
into the modern era.
    Subsequent to the Provisional IT Plan, the Copyright Office and the 
Library engaged in extensive, collaborative efforts to identify 
resource-sharing opportunities that may be achievable through use of 
the Library's existing or planned future technology resources and 
support services. Significant progress has been made by both sides in 
assessing how capabilities can be leveraged to produce the most 
advantageous and cost effective results, and these collaborative 
efforts will be reflected in the Office's revised IT plan, which will 
be submitted later this summer in response to the Committee's request. 
To ensure the revised plan is as comprehensive as possible, the Office 
and the Library's Office of the Chief Information Officer (OCIO) have 
partnered in assembling a team of experts to identify gaps and 
opportunities in available technologies, shared services, and mutually-
supportive strategies. The revised IT modernization plan will be a 
forwarding-thinking document that provides an enhanced roadmap for 
overall modernization efforts.
    Currently, the Library is centralizing the IT functions of the 
business units, including the Office's IT functions. The Office is 
requesting fiscal year 2018 funds that were developed in coordination 
with the Library's Chief Information Officer to ensure alignment with 
the Library's overall IT strategy. The planning for a Library-led 
strategy for Office IT modernization is ongoing and is expected to 
result in additional funding requests in future years as these efforts 
progress. Since responsibilities will be bifurcated between the 
Library's OCIO, which has primary responsibility for infrastructure, 
project management, and other aspects of IT management, and the Office, 
which provides subject-matter expertise and manages mission-critical 
applications, future funding requests related to Office modernization 
will come from both the Library and the Office.
    At the same time, the Copyright Office has been developing a 
comprehensive plan to modernize its recordation system, and has now 
reached the final year of planning and analysis activities to bring its 
recordation systems online. The Office has undertaken significant 
planning, releasing the Office's Kaminstein Scholar's 2015 report 
Transforming Document Recordation at the United States Copyright 
Office. By the close of the current fiscal year, the Office will have 
completed documenting business and technical requirements and related 
documentation needed for a future-state IT system to accommodate online 
filing and processing of copyright-related documents. Under the shared 
services protocol, the Office plans to deliver the completed package of 
planning documentation to the OCIO later this year so that development 
of the future-state system can begin in fiscal year 2018.
    To significantly advance modernization goals, the Copyright Office 
is requesting $3.6 million, comprised of fees and one-time budget 
requests, as referenced above. In addition to continued development of 
a recordation system, these additional funds will allow the Office to 
launch the first phase of development of a next-generation copyright 
registration system through a thorough, comprehensive analysis of 
business requirements. This phase will include requirements gathering, 
requirements validation, and system design sessions with various 
copyright industry and user group partners, as well as with Office 
staff, to ensure that the unique needs and specific requirements of the 
widest array of user groups are documented and ultimately incorporated 
into the new registration system. Moreover, the funding is necessary to 
mitigate identified risks and to ensure that the Office's existing 
legacy systems remain available and operational until functionality can 
be more permanently addressed through the Office's and Library's joint 
modernization efforts. The requested funding also would allow for 
system monitoring to reduce the risk of system intrusion, proactively 
identify system issues before they occur, and provide for security 
enhancements that would evaluate the technical and non-technical 
security features of existing systems to ensure the systems meet 
mandated security requirements. The activities in this request are 
early-phase projects to be undertaken by the Office in what will be a 
multi-year modernization effort. As the Office and the Library work to 
deliver these improved technologies on behalf of customers and 
stakeholders, it is expected that additional requests for funding will 
be generated.
Copyright Office Staffing
    The Copyright Office operates on a very modest budget while 
providing valuable services to the public at large, copyright owners, 
technology companies, and the Library itself. For quite some time, the 
Office has conducted this important work with very limited staff. The 
Office believes that additional staffing is critical in several core 
areas to address the expansion in the use of the Nation's copyright 
system, including the need for additional examination capacity and 
increased services to copyright stakeholders, and to address 
increasingly complex policy issues regarding Copyright Act 
interpretation and administration.
    The staffing requests span several areas of the Copyright Office. 
First, the request seeks to add much-needed registration specialists. 
While the Office has hired specialists in recent years, they must 
undergo complex, extensive training in the legal examination of 
copyright applications to properly fulfill their job responsibilities. 
Thus, adding new registration specialists does not immediately result 
in reducing application processing times and, in fact, can appear to 
provide an increase in processing times due to existing specialists 
taking on training roles for the new employees instead of devoting all 
of their time to reviewing incoming claims. The Office's request thus 
seeks 15 additional registration specialists to provide necessary 
capacity to reduce turnaround times in the future, while providing for 
the ongoing training and quality control necessary to better manage 
workload spikes.
    Second, the Copyright Office's request also aims to enhance other 
areas that support the administration of the copyright system. 
Specifically, the request would provide additional staff to the 
Office's small group of legal specialists, who must handle a steadily 
increasing workload as the copyright landscape evolves in both 
complexity and volume. Additional staff also would work in the Office's 
Public Information and Education division, allowing the Office to 
provide expanded service hours for its large community of West Coast 
customers.
    The Copyright Office greatly appreciates the Committee's 
consideration of this request and ongoing support for the success of 
the Office and for the national copyright system.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
    Mister Chairman, Ranking Member Murphy and Members of the 
subcommittee,

    Thank you for the opportunity to present the fiscal year 2018 
budget request for the Congressional Research Service (CRS) and to 
briefly describe to you the support we have provided the U.S. Congress 
this past year. As you know, the Service assists Congress by supporting 
its legislative, oversight, and representative functions. CRS provides 
objective, analytical research and information to all Members and 
committees through all stages of the legislative process. The Service 
assists in analyzing draft legislation, comparing policy proposals and 
options, and assessing the potential impacts of policy changes. It 
provides substantive written products, tailored confidential memoranda, 
issue-related seminars, and personal consultations and briefings. 
Moreover, CRS provides those services without advocacy or agenda.
    In the last fiscal year, CRS served the Senate and House with 
support across a wide spectrum of complex and diverse issues. The 
Service received 563,000 requests for products and services from 
Members and committees, including more than 62,000 requests for custom 
research and analysis. CRS produced more than 3,600 new or updated 
products, published over 6,300 bill summaries on our website, and 
hosted seminars and other events for more than 9,200 congressional 
participants. In the last fiscal year and in the several years prior, 
CRS provided custom services to 100 percent of Senate and House member 
offices and standing committees.
                    fiscal year 2018 budget request
    The CRS budget request for fiscal year 2018 is $119,489,000, with 
almost 90 percent devoted to staff pay and benefits. This request 
equitably balances the competing goals of providing the comprehensive 
services mandated by statute, while recognizing the significant budget 
challenges facing Congress and the Nation as a whole.
                           budget challenges
    Over the past several fiscal years, CRS's staffing levels and 
purchasing power have been significantly diminished, while demand for 
CRS work has remained strong. CRS is committed to maintaining broad 
analytical expertise and flexibility to address both recurrent and 
emerging legislative issues. However, if the fiscal trajectory of 
recent years continues, CRS may not be able to sustain the level of 
service currently provided.
    CRS's full-time equivalent (FTE) staffing levels since fiscal year 
2010 have dropped by 13 percent, including an 8 percent reduction in 
analytical capacity. While CRS continues to hire analytical, research, 
and managerial staff, the Service is not able to replace staff on a 
one-to-one ratio. CRS has worked to contain costs, including 
prioritizing hiring research staff over other positions, and dividing 
congressional issue portfolios among remaining staff to maintain 
comprehensive coverage of legislative priorities. To streamline our 
infrastructure, in April we combined our workforce and finance offices 
into one Office of Administrative Operations.
    Static budgets since fiscal year 2010 have also resulted in the 
erosion of CRS's purchasing power by almost 16 percent. CRS uses as 
many modern methodologies and technology platforms as available and 
affordable to increase its efficiency. However, diminishing purchasing 
power may affect CRS's ability to maintain current service levels.
    Specifically, the Service anticipates that:
  --the ability of CRS to conduct in-depth research and analysis will 
        be adversely impacted as existing staffing gaps intensify, with 
        the Service facing challenges acquiring necessary new expertise 
        and retaining its invaluable cadre of experienced experts;
  --the Service will not be able to effectively procure and utilize new 
        technologies and thus will not be able to leverage the 
        increasingly vast amount of data that could provide critical 
        insight for congressional decisionmaking;
  --areas of consistently heavy congressional demand, including 
        education, healthcare, defense, and appropriations will 
        increasingly be impaired by staffing constraints, and the 
        timeliness of responses to requests and of updating research 
        products may be compromised due to expanding staff workloads; 
        and
  --the Service's ability to effectively perform all of the functions 
        required by statute may diminish.
             fiscal year 2018 programmatic increase request
    CRS is requesting $4.753 million in programmatic increases in 
fiscal 2018 in order to address ongoing challenges and to continue to 
provide the products and services expected by the Congress. This 
request includes $753,000 to support eight not-to-exceed (NTEs) 
appointments to strengthen research capacity in areas of high 
congressional demand and $4 million to support an Integrated Research 
and Information System (IRIS), a needed technology enhancement.
    The majority of the requested funding increase would establish the 
Service's next-generation Integrated Research and Information System 
(IRIS). For fiscal 2018, CRS is requesting $4 million be temporarily 
added to the base through fiscal 2022, for a 5-year investment of $20 
million, to modernize legacy IT systems. The current funding level only 
allows CRS to support operations and maintenance on its existing, aging 
systems. IRIS will leverage the latest advances in web based 
technologies to provide an agile and flexible infrastructure that will 
enable efficient, easy-to-use technologies for rapid deployment and use 
by CRS staff and Congress. IRIS will support Congress in four key 
areas: knowledge management; policy and data analysis; content 
creation; and product delivery. New tools and systems will allow for 
significant improvements including: enhanced personalization of content 
and alerts for congressional users; a more effective search engine with 
faceted search; and new content management and authoring systems, which 
will reduce staff time spent on administrative and production issues, 
thereby allowing for more staff time to focus on research, analysis, 
and consultative services for Congress. IRIS will also allow CRS to 
better capture, digitize, and catalog institutional memory, including 
work products and supporting materials, for future CRS staff.
    CRS also plans to create eight new entry-level positions which 
would be recruited at the GS-11 pay level in NTE 3-5 year appointments. 
These positions would support our succession planning efforts by 
establishing a pool of qualified and available talent. Succession is a 
concern for the Service as 23 percent of CRS staff will be retirement 
eligible in fiscal 2018. CRS is seeking two positions in each of the 
following high-demand areas: defense policy and budget; health policy; 
education policy; and budget and appropriations process.
                  legislative support for the congress
    CRS supported Congress over the past fiscal year across all public 
policy issues. This support included examining the nature and extent of 
domestic and international issues facing Congress; identifying and 
assessing policy options; assisting with hearings on policy proposals 
and on implementation of policies; supporting congressional review of 
nominations and treaties; and providing products, briefings, and 
consultations to address pressing issues on the legislative agenda.

    Selected highlights of our services are as follows.

    Comprehensive Energy Legislation: Members of Congress from both 
chambers met in conference to negotiate major energy and natural 
resources legislation. CRS provided ongoing support for the conference 
process through in-person consultations, comparisons of bill sections, 
analysis of provisions, new reports, and updates.
    Constitutional Law and CONAN: The role of the Constitution in 
shaping American society was a prominent issue in the 2016 election, 
and the death of Antonin Scalia raised the potential for significant 
changes to the future of constitutional interpretation by the Court. 
CRS attorneys provided guidance to lawmakers through a variety of 
formats, including efforts to prepare the decennial edition of the 
Senate Document, The Constitution of the United States of America: 
Analysis and Interpretation (CONAN), presentation of seminars for the 
Federal Law Update series relating to constitutional law, the Court's 
criminal law cases, and the application of the Constitution's Supremacy 
Clause. In the wake of the death of Justice Scalia and the nomination 
of his successor, CRS attorneys wrote comprehensive reports to guide 
lawmakers with regard to the Supreme Court vacancy.
    Defense Reform and the National Defense Authorization Act: CRS 
assisted lawmakers as they debated key provisions in the fiscal year 
2017 National Defense Authorization Act, beginning with seminars for 
staff of both chambers on the President's defense budget request, often 
the first such overview and analysis available to Congress following 
the administration's initial budget presentation. CRS experts examined 
proposals related to reform of the Department of Defense. As the bill 
entered its conference phase, more than 60 CRS analysts prepared side-
by-side comparisons of the more than 1,000 provisions in the Senate and 
House versions of the bill.
    Environmental Law and Policy: In 2016, CRS analysts and attorneys 
assisted Congress by analyzing Senate and House amendments to the Toxic 
Substances Control Act. When the Environmental Protection Agency (EPA) 
issued its Clean Power Plan rule regulating emissions of greenhouse 
gases from existing fossil fuel-fired power plants in 2015, CRS 
analysts and attorneys briefed congressional requesters regarding the 
implications of the rule and provided written reports and memoranda.
    Federal Aviation Administration: In fiscal year 2016 both the 
Senate and House addressed legislation to reauthorize civil aviation 
programs, encompassing everything from regulation of unmanned aircraft 
to subsidized air service to small communities. CRS responded to 
congressional requests for analysis as the two chambers considered 
provisions relating to aviation security, hiring of air traffic 
controllers, and maintenance of control towers at small airports.
    International Law: CRS legislative attorneys provided research and 
analytical support through briefings and written products on a number 
of foreign affairs and international law issues, including the Paris 
Agreement made by parties to the United Nations Framework Convention on 
Climate Change, the Joint Comprehensive Plan of Action regarding Iran's 
nuclear program, resolutions issued by the United Nations Security 
Council, and various treaties submitted to the Senate for its advice 
and consent. The attorneys also researched the status of the settlement 
claims against Iran and assisted as Congress enacted the Justice 
Against Sponsors of Terrorism Act.
    Transatlantic Trade and Investment Partnership and ``Brexit'': CRS 
worked with Congress on a major trade agreement as it entered its 
fourth year of negotiation, the U.S.-EU Transatlantic Trade and 
Investment Partnership (TTIP). CRS regularly updated Congress on the 
status of the negotiations, the priorities of the respective sides, and 
the outstanding issues that remained to be resolved before the 
agreement could be concluded. A related policy issue for Congress was 
the United Kingdom's decision to leave the European Union. CRS 
supported Congress as it expressed interest in the vote's outcomes, 
particularly the trade and economic implications. CRS helped Congress 
assess its impact on TTIP and on the potential future U.S.-UK free 
trade agreement.
    Middle East Turmoil, Terrorism, and Instability: CRS provided 
Congress with in-depth analysis and authoritative information about 
ISIS and the international struggle against it and other terrorist 
groups in Iraq and Syria as well as Libya, Yemen, Egypt, and beyond the 
region to Europe and Asia. CRS analyzed a new Memorandum of 
Understanding between the United States and Israel aimed at enabling 
Israel to defend itself effectively in the midst of regional 
instability and Israel's continued concerns about threats from Iran. 
CRS also conducted detailed analysis of the failed July coup in Turkey.
    Response to the Zika Outbreak: Analysts and attorneys across the 
Service reported on policy concerns affecting countries in Latin 
America and the Caribbean, as well as the United States and its 
territories. CRS helped Congress as it considered measures to fund Zika 
response efforts and assisted in understanding Zika funding requests in 
relation to the status of appropriated funds for the previous Ebola 
crisis. Congress repeatedly turned to CRS legal, policy, and budgetary 
experts as it deliberated an aid package to support domestic and 
international efforts to contain the outbreak.
                         management initiatives
    CRS developed initiatives to optimize workflow, streamline 
operations, and enhance efficiency. Selected accomplishments are as 
follows.
Congress.gov Development
    As part of the Library's multi-departmental team, CRS contributed 
to continuing development and daily operations of Congress.gov, which 
will replace two legacy legislative information systems with a single, 
modern system. CRS provided data analysis, subject matter expertise, 
consultation, system testing, user testing, coordination of data 
partner relationships, and support for congressional users and data 
partners. The Service also supports the use of the Congress-only LIS 
until equivalent capability is fully developed for Congress.gov. 
Accomplishments included the deployment of LIS-like quick searches for 
each of the Congress.gov collections and the initial implementation of 
an LIS-like advanced search.
Strategic Planning
    CRS began implementing a new 5-year strategic plan for 2016 through 
2020. Key goals of the plan include expanding the range of products and 
services in line with the needs of Congress across a diverse clientele, 
enhancing a dedicated professional workforce to deliver those services, 
and efficiently and effectively managing resources to ensure that the 
Service optimally executes its statutory mission. As part of that 
effort, CRS is comprehensively evaluating operations and research 
activities to leverage efficiencies and synergies. For example, as 
noted, CRS merged its workforce and finance operations. Furthermore, 
the Service continues to critically examine other facets of its 
operations to strategically allocate resources. CRS also launched new 
initiatives on workplace diversity and internal communications to 
strengthen employee engagement.
Information Technology Improvements
    CRS is collaborating with the Library of Congress to consolidate IT 
operations and services, as appropriate. In parallel with that process, 
in the past fiscal year, the Service upgraded Mercury, its customer 
relationship management (CRM) system. CRS also redesigned parts of its 
website for Congress (CRS.gov) into a series of 23 new Issue Area 
pages, which better align with the issue portfolios found in 
congressional offices.
Product Enhancements
    CRS launched a new infographic product on CRS.gov. Infographics are 
intended to present complex information without the need for an 
accompanying written product. The Service also continued work on 
geospatial analysis and mapping products to illustrate public policy 
data. CRS continues to explore additional product formats for 
presenting information and analysis in ways that meet congressional 
needs for authoritativeness, accuracy, and brevity. As part of this 
effort, the Service is developing one-page summaries of CRS reports 
that will be published as stand-alone products.
                               conclusion
    CRS continues to provide accurate, timely, objective, and 
nonpartisan research to the Senate and the House. However, CRS's 
ability to continue to provide comprehensive research and analysis 
across the spectrum of complex congressional issues may become 
increasingly challenging as the Service works to replace departing 
colleagues, to hire new staff in emerging areas, and to modernize 
information technology.
    Thank you for your steadfast support of the Service's mission, and 
the trust you place in the Service. I look forward to working with you 
to ensure that CRS continues to robustly meet your needs in an 
increasingly complex and fast-paced legislative environment.

    Senator Lankford. Thank you.
    Mr. Ayers.
                              ----------                              


                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL
    Mr. Ayers. Thank you, Chairman Lankford and Ranking Member 
Murphy.
    I appreciate the opportunity today to present the Architect 
of the Capitol's budget for fiscal year 2018.
    Our request of $773 million dollars prioritizes the people 
and projects that are required to fulfill our mission to serve 
Congress and the Supreme Court, preserve America's Capitol and 
inspire memorable experiences for people that visit here from 
across the globe.
    Over the last two decades, our footprint has increased 
substantially and today we operate and care for more than 17.4 
million square feet of space across 36 different facilities and 
570 acres of grounds. In fiscal year 2016, we hosted more than 
4.5 million visitors from throughout the United States and 
around the world.
    During this time, not only has the AOC kept up with, but we 
think we have staked a leadership role in, using innovative 
technology and addressing significant security challenges that 
face us.
    AOC employees work around the clock to maintain our 
facilities to ensure the health and safety of those who visit 
and work on the Capitol campus each day. We could not 
successfully achieve our mission without the hard work, skill 
and commitment of our current team of more than 2,100 craftsmen 
and dedicated professionals.
    Last year, Mr. Chairman, I promised your predecessor that 
2016 would be a banner year for the AOC, and I am delighted to 
report that we delivered. The AOC successfully completed 
several high profile projects on time, on budget and with 
minimal disruption to our building occupants and visitors, 
including the completion of the Capitol dome restoration. And, 
as we have for more than 150 years, the AOC recently supported 
preparations for the Presidential Inauguration.
    As substantial and historic as some of our recent 
accomplishments are, regular preventive maintenance is the best 
defense against the deterioration of our buildings, and the 
best defense against rising costs.
    Budget constraints continue to slow our ability to perform 
regular inspections and routine maintenance that improve 
functionality and extend the lifespan of our infrastructure. We 
rely on temporary fixes that buy time, but are not enough to 
prevent conditions from worsening.
    Our fiscal year 2018 request includes $25 million in 
overdue operational increases to meet the demands of mandatory 
cost increases and address critical repairs that reduce the 
risk of failures in the future.
    Our request will provide the necessary resources for 
preventive maintenance, thereby avoiding costlier fixes to our 
infrastructure and slowing the growth of the $1.55 billion in 
backlog of fire and life safety, and security improvement 
projects.
    In addition, using our risk based prioritization process, 
we are requesting $240 million in capital projects this year. 
Nearly 70 percent of this capital request is specifically for 
the repair or replacement of projects that are past due or for 
systems that are approaching the end of their useful life.
    We are, again, requesting funds to replace obsolete 
chillers from the 1970s at the Capitol Power Plant to ensure 
safe and efficient air distribution across the Capitol campus.
    Our efforts continue to eliminate water infiltration that 
has deteriorated the stone facades of so many or our buildings. 
We are requesting funding for the Russell Senate Office 
Building exterior envelope repair, as well as the renovation of 
the Senate underground garage, which will ensure those projects 
continue to progress on time and on budget.
    We are also prioritizing security and resilience projects 
across the Capitol campus.
    We are committed to driving down our injury rates, driving 
up energy efficiency and reducing costs at every opportunity. 
With your support, we can ensure that the Capitol campus is 
accessible to all and remains a vibrant display of our 
democracy.
    Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Stephen T. Ayers
    Chairman Lankford, Ranking Member Murphy, and Members of the 
subcommittee, I appreciate the opportunity to present the Architect of 
the Capitol's (AOC) fiscal year 2018 budget. Our request of $773 
million prioritizes the people and projects required to fulfill our 
mission to serve Congress and the Supreme Court, preserve America's 
Capitol and inspire memorable experiences.
    The AOC has a legacy that is rooted in the very beginnings of 
Washington, DC, with the laying of the U.S. Capitol cornerstone in 
1793. As the country grew, so did the Capitol campus and with it the 
AOC's responsibilities. Today, we operate and care for more than 17.4 
million square feet across 36 facilities and 570 acres of grounds.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

ARCHITECT OF THE CAPITOL STEPHEN T. AYERS ANNOUNCING THE COMPLETION OF 
               THE U.S. CAPITOL DOME RESTORATION PROJECT

    In the last two decades, our footprint has increased substantially. 
Along with the sheer growth in size, the complexity of operating our 
facilities has changed significantly. The number of people that work 
here has grown, and the number of people that visit has skyrocketed. 
The Capitol campus is home to thousands of daily occupants and has 
hosted approximately 4.5 million visitors from throughout the U.S. and 
around the world in fiscal year 2016.
    During this time, the AOC has not only kept up with, but staked a 
leadership role in using innovative technology and addressing 
significant security challenges all while driving down injury rates, 
driving up energy efficiency and reducing costs.
    In 2016, we completed several high-profile projects on-time, 
within-budget and with minimal disruption to building occupants and 
visitors.
    In the fall, we celebrated the once-in-a-generation restoration of 
the U.S. Capitol Dome and Rotunda. With the support of the Congress, 
hundreds of expert craftsmen worked day and night to restore the Dome 
to its original inspiring splendor.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              GRANT MEMORIAL RESTORATION BEFORE AND AFTER

    We also completed the initial phase of the work needed to preserve 
Union Square. In 2011, Congress transferred Union Square to the AOC and 
made the meticulous restoration of the Ulysses S. Grant Memorial a 
priority. Weather and time have not been kind to the memorial, and we 
are working to address safety issues and repair the most visibly 
deteriorated conditions throughout Union Square. The restoration of the 
bronze components and marble pedestals of the Grant Memorial will once 
again allow all who visit to experience the power and majesty of the 
memorial.
    In addition, we successfully completed the first phase of the 
Cannon Renewal project. On time and under budget, this phase included 
installing building utilities, primarily in the basement, and the moat 
area of the courtyard. This enables future work to connect to the new 
systems, minimizing shutdowns and disturbances.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            STONE PRESERVATION AT THE U.S. CAPITOL BUILDING

    Stone preservation across the Capitol campus remains a top priority 
for us, as nearly every building is enveloped in stone and all have 
significant problems. To address these stone issues across the campus 
takes a team of historic preservationists, structural engineers and 
stonemasons, among others. The men and women of the AOC are in a race 
against time as the infrastructure rapidly crumbles and deferred 
maintenance projects accumulate. While we face many challenges, we 
continue to successfully tackle this important issue. In 2016, we 
completed the first section of the U.S. Capitol Stone and Metal 
Preservation project. This multi-phased project is designed to extend 
the life expectancy of the deteriorated stone and to replace missing 
elements of the U.S. Capitol Building.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     2017 PRESIDENTIAL INAUGURATION

    And as we have for more than 150 years, the AOC recently supported 
preparations for the 58th Presidential Inauguration. We successfully 
constructed the inaugural platform, set up the necessary fencing, 
placed over 30,000 chairs on the grounds, procured the sound system and 
other support systems, installed the flags and buntings, and 
coordinated many other activities with the Joint Congressional 
Committee on Inaugural Ceremonies. We are extremely proud to have once 
again been part of this historic event.
                      immeasurable responsibility
    As substantial and historic as some of our recent accomplishments 
are, they should not diminish the importance of our day-to-day duties. 
AOC employees work around the clock to maintain our facilities and 
ensure the health and safety of those who visit and work at the Capitol 
campus each day. Our fiscal year 2018 budget request of $773 million 
includes funding increases to provide the regular, ongoing maintenance 
that is vital to protect our recent major investments. Regular 
preventive maintenance is the best defense against the enemy of 
deterioration by slowing the cycle of decline and helping guard against 
catastrophic failure and unsafe conditions. The most prudent, cost-
effective investment we can make is to support adequate personnel and 
resources to perform regular inspections and routine maintenance that 
improve functionality and extend the life span of our infrastructure.
    The demand of meeting mandatory cost increases is compromising our 
ability to fully execute these core functions. Budget constraints have 
slowed our ability to perform maintenance and, rather than purchasing 
needed parts and service throughout the year, we are relying on 
temporary fixes that buy time but are not enough to prevent conditions 
from worsening. Across campus, we must address a growing backlog of 
work that is needed to keep our heating, ventilation and air 
conditioning equipment and electrical systems operational. Plumbing 
inspections, carpentry work, general repairs and emergency repairs 
compete for limited resources. In recent years, we have successfully 
managed to balance competing needs and diminishing resources, but we 
are now faced with critical life cycle repairs and replacement 
requirements that must be met to reduce the risk of system failures.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

PERFORMING ROUTINE MAINTENANCE IMPROVES THE SAFETY AND SECURITY OF OUR 
                             INFRASTRUCTURE

    To address this, our request will provide resources necessary for 
preventative maintenance, thereby avoiding more costlier fixes to 
campus infrastructure and slowing the growth of the $1.55 billion 
backlog in campus fire, life-safety and security improvement needs.
    In addition, using the AOC's risked-based project prioritization 
process, we are recommending 21 Line Item Construction Program projects 
totaling $240 million. Of this, $166.4 million (or 69 percent) is 
specifically for projects classified as Deferred Maintenance (repair or 
replacement is past due, in some cases significantly) or Capital 
Renewal (approaching the end of useful life).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 DETERIORATION OF THE RUSSELL SENATE OFFICE BUILDING EXTERIOR ENVELOPE

    Our fiscal year 2018 request includes funding for the Russell 
Exterior Envelope Repair and Renovation project. The Russell Senate 
Office Building recently passed its 100th anniversary and is showing 
its age. This project mitigates life-safety hazards and reduces current 
maintenance and energy costs.
    Preservation of the exterior stone, windows and doors at the U.S. 
Capitol and the U.S. Supreme Court are also underway. These projects 
will prolong the life expectancy and preserve the historic features of 
the buildings by preventing water and air infiltration, slowing 
deterioration of the stone and corrosion of the metals, repairing 
damage, and removing soil and stains.
    And soon we will begin the Senate Underground Garage. Ensuring this 
critical project is fully funded will allow us to remain on-schedule 
and prevent continued deterioration that has jeopardized the garage 
structure and increased the risk of deteriorating concrete.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       STORAGE MODULE AT THE LIBRARY OF CONGRESS FT. MEADE CAMPUS

    Also, construction of Module 6 at the Library of Congress' book 
storage facility complex at Fort Meade, Maryland, will further 
accommodate the Library's expanding collections of books, manuscripts, 
prints, maps, cultural and other copyrighted materials. Without 
additional off-site storage, as the Library's collections in all 
formats grow, the current situation continues to deteriorate, 
exacerbating the already dangerous conditions with regard to life-
safety, research and preservation.
    We are also requesting funds in fiscal year 2018 for several safety 
and security projects that impact campus-wide services. At the Capitol 
Power Plant, the four existing cooling towers on the roof of the West 
Refrigeration Plant are more than 35 years old and beyond their useful 
life expectancy. The concrete associated with the cooling tower and 
other system components are continuously deteriorating, increasing 
potential for the towers to fail without warning.
    Externally, and in close coordination with the Capitol Police 
Board, we are prioritizing security upgrades to the Capitol campus. We 
must replace vehicle barriers and kiosks that have reached the end of 
their intended life cycle. Additionally, an enhanced exterior security 
presence and upgraded building infrastructure are essential elements in 
support of the security mission of the U.S. Capitol Police.
    Improvements are needed to address the long-term maintenance, 
preservation and restoration of Capitol Square, which encompasses the 
56 acres of grounds surrounding the U.S. Capitol. The aging, antiquated 
and disorganized system of infrastructure above and below ground 
continues to increase the negative impacts on projects, further damages 
the Capitol Square grounds, and prevents effective planning for future 
initiatives.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    PRESERVATION DAY CELEBRATION AT THE U.S. CAPITOL VISITOR CENTER

    The AOC is dedicated to creating a safe, welcoming and inspiring 
experience for all who visit Capitol Hill. For many visitors, this may 
be their first and only time seeing the Nation's capital, and we work 
hard to ensure the experience is worthy of this working symbol of 
American democracy and freedom. The dedicated employees of the U.S. 
Capitol Visitor Center and the U.S. Botanic Garden work to enhance 
customer service, hospitality and visitor engagement in a seamless, 
cohesive and positive visitor experience. As a source for civic 
education, we must continue to grow our exhibit and education 
experiences to maintain the high level of quality visitors expect and 
to expand our reach to include online and virtual visitors to the U.S. 
Capitol.
                               conclusion
    The AOC's core values--integrity, professionalism, teamwork, safety 
and pride--drive our daily mission to serve Congress, the Supreme Court 
and the American people every day. From clearing snow after the January 
2016 snow emergency, to coordinating Supreme Court Justice Antonin 
Scalia's lying-in-repose ceremony, to planning congressional office 
moves and supporting the 58th Presidential Inauguration, we strive to 
be a world-class organization providing superior service to our 
clients. The AOC's fiscal year 2018 budget request furthers our 
commitment to ensuring the Capitol campus is accessible to all and 
remains a vibrant display of our democracy.

    Senator Lankford. Thank you very much.
    With the ranking member's concurrence, what I think I would 
like to do is have a more open conversation and not worry so 
much about the clock, since it is the two of us. We may have 
some other members that will pop in and out.
    I will address the questions initially to Dr. Hayden and 
then let us just swap back and forth. Then we will thoroughly 
grill Mr. Ayers from there, if that is all right with you. That 
will give you time to be prepared for that.
    Mr. Ayers. Yes, sir.

                 LIBRARY'S INFORMATION TECHNOLOGY PLAN

    Senator Lankford. Dr. Hayden, let me run through just a 
couple of things. Give me additional detail on the IT 
modernization plan, and the structure of that. Let us start 
with some basic things.
    You have a data center relocation, if I remember correctly, 
in that. Talk me through that project, what that means, and the 
timing.
    Why is this the right year to do that?
    Dr. Hayden. Yes. The IT modernization, as you may know, has 
been a major challenge and priority for the Library for a 
number of years, the Government Accountability Office report as 
well as Inspector General's recommendations. There are three 
benchmarks in the Information Technology plan for the Library.
    Number one is to stabilize the systems that exist; for 
instance, stop interruptions and outages. The second part would 
be to optimize, improving what we have already and what we can 
do with the legacy systems. And then one of the best parts is 
to modernize, making changes to the applications and making it 
better.

                         DATA CENTER MIGRATION

    The need to move to a more secure and a technology 
infrastructure base, the computing center, will allow the 
Library to move from a Tier 1 to a Tier 3 environment. That 
will not only stabilize our operations as they exist, but also 
provide better security and better operational aspects.
    For instance, at a Tier 1 facility that the Library 
currently occupies, it has a number of environmental 
challenges. By moving to another facility that is safely away 
from Capitol Hill--so you are migrating the physical operations 
to another location--you will then be able to have your 
security aspects in a format that will allow for cloud 
computing as well as physical. It will be both in the new 
computing. So that has started.
    We have a timetable of being able to have the contract by 
this August for moving materials and equipment out of the 
existing facility to the new, and then by next year, being able 
to complete the move.
    Senator Lankford. Let me ask a question. In the omnibus 
that we just passed for the rest of this fiscal year, we 
allocated $20 million for that data center move.
    Dr. Hayden. Yes.
    Senator Lankford. The good news - bad news on it. Good news 
is we finally got the appropriations bills done and got that 
finished. Bad news, it is a very short window with just the 
rest of this year.
    Do you feel confident that with that $20 million you can go 
through the process of the contracting, getting it out, getting 
the bids, whatever is required to be able to manage that in a 
way that is a good use of funds rather than have to be in a 
hurry to try to be able to get that done?
    Are you in a posture that you can use that effectively or 
is that about to rollover into next year?
    Dr. Hayden. No, we are not.
    And I say no like that emphatically because joining with 
me, and right behind me, is Mr. Bernard A. Barton, Jr., CIO, 
the first permanent CIO the Library has ever had.
    The contract for beginning the initial stages of the move 
is being submitted as we speak--I just got an update on that 
yesterday--and will be awarded by mid-summer August before this 
fiscal year ends.
    Then for fiscal year 2018, the initial phase of moving the 
equipment and the data to the Tier 3 environment will be 
completed. Then fiscal year 2019, everything will be completed 
to the Tier 3 environment. So in anticipation of a short period 
of time to let the contract, we are very hopefully getting 
things ready.

                            IT MODERNIZATION

    Senator Lankford. By the time we get to 2019, do you 
anticipate that all of the Library's legacy systems, as you 
mentioned them, are gone and that we have the modernization 
done? Or will there still be legacy systems there even in 2019, 
excluding the card catalog, by the way, in the corner? The old 
pull drawer catalogs, that legacy system is to remain.
    Dr. Hayden. And the card catalogs themselves physically 
still exist.
    Senator Lankford. Yes, so they need to remain. But the 
computer screens with the orange monitor probably need to be 
modernized. So tell me what you expect in that modernization.
    Dr. Hayden. Mr. Barton, we might want to bring him up just 
to clarify some of my general understanding, Mr. Barton reports 
directly to me now. That was one of the GAO recommendations and 
I get weekly updates.
    My understanding is that there are some mission specific 
legacy systems that have not been totally transitioned. For 
instance, the request for IRIS is taking care of the CRS system 
that is at least 20-years old and needs to be updated.
    We are looking at the copyright registration system, for 
instance, the Patent Office changeover and other similar types 
of processes that are automated. So we anticipate that we will 
be well on the way with most of the turn over for legacy 
systems. That is a major focus.

                IT MODERNIZATION AFFECTING STAFF LEVELS

    Senator Lankford. At the end of that time period, do you 
expect that we will need fewer FTEs, more, or the same based on 
that modernization?
    Dr. Hayden. What is sometimes not always evident is the 
number of staff members might be the same, but they will be 
different types of positions as you move more into a more 
modernized IT environment. And so, we cannot predict right now 
exactly the difference in the number.
    Sometimes there is a sense that if you increase the digital 
capacity that the human capital might decrease.
    Senator Lankford. Right. Yes, and the Government Publishing 
Office has experienced that.
    Dr. Hayden. Very much so.
    Senator Lankford. They have done remarkable modernization 
over the last several years.
    Dr. Hayden. Right.
    Senator Lankford. And have also had a decrease in staff 
because of their modernization efforts.
    Dr. Hayden. And that is something that you hope that there 
will be an opportunity to look at the number of staff that we 
have at the Library, of course.
    For instance, with CRS, even if you have modern ways to 
communicate and serve Congress, still 90 percent of their 
budget is personnel because it is the human capital.
    Senator Lankford. Right.
    Dr. Hayden. So we will be looking at that balance.
    Senator Lankford. Thank you. Let me reserve other 
questions.

                         ABSORBING BUDGET CUTS

    Senator Murphy. Thank you, Mr. Chairman.
    I would like to come back to some of my opening remarks 
about the potential consequences from the massive budget cuts 
that could be coming. You are talking about a 3 percent cut if 
we do not adjust the budget caps and then potentially another 
13 percent cut if the President's budget is put into effect.
    And so, maybe I frame this in the context of a request that 
you have made, Dr. Hayden, for $1.8 million to restore some 
basic custodial services inside the Library.
    Dr. Hayden. Yes.
    Senator Murphy. Maybe you can talk about why that shortfall 
came about, but then maybe that is context to discuss what the 
impact would be of getting no additional funding to cover 
shortfalls like the one you have identified with respect to 
custodial services. But also then to have to endure 13 percent 
cuts to the overall budget.
    What decisions would you have to make if the President's 
budget actually became law?
    Dr. Hayden. Absorbing mandatory pay increases, and I 
mentioned that in the opening statement, and making sure that 
staff members at least have basic level of cost of living 
increases would have to be something that we would want to 
maintain.
    Looking at innovative ways to address staff shortages is 
something that is actually covered in our CRS request for eight 
short-term junior analysts that could have flexible schedules.

                       CUSTODIAL SERVICES REQUEST

    The deferred maintenance, the Architect mentioned what 
effect that has on the physical. It also affects things in 
terms of the Library with the custodial. And when you have 
collections, and you have people, and you have sensitive 
materials, custodial services are very important. The Library, 
in my review of the request, has had to make steady decreases 
in custodial services and over time that does have an impact.
    So at the Library, we are all looking throughout the 
Library of where we can make those adjustments and what that 
impact might have.
    Senator Murphy. As you know, people have very strong 
feelings about the future of the Copyright Office.
    Dr. Hayden. Yes.

                        COPYRIGHT MODERNIZATION

    Senator Murphy. And without getting into the details of the 
policy questions, one of the issues here is a backlog of over 
300,000 workable claims on copyright registration.
    I wonder if maybe you would talk about how the 
modernization effort that you are undergoing would affect the 
Copyright portion of the Library of Congress and whether some 
of that will address the backlog issue that we hear a lot 
about.
    Dr. Hayden. In fact that has been, as I mentioned also in 
the opening statement, a major focus of mine is to not only 
Library-wide modernization, but in particular the two special 
units, Copyright and CRS, and with the processes of copyright 
registration and recordation, two different processes.
    We are looking at making sure that we are able to modernize 
the legacy systems that Copyright uses as well as moving from 
as much paper-based parts of both processes that can be 
eliminated.
    And so steps have been taken already that will allow 
people, for instance, to register for copyright basically 
through electronic means and also to reduce the time that it 
takes for examiners to determine if the copyright is feasible 
and what type of copyright. So there has been quite a bit of 
work.
    I wanted to take this opportunity, if I may, to compliment 
Miss Karyn Temple Claggett, who has been Acting Register. She 
is right behind me. To thank her because she has really gotten 
in there, and pushed that effort along to try to address the 
backlogs and really make IT modernization happen sooner.
    So there is a timeline, and Miss Claggett and Mr. Barton 
have been working closely together to make sure that in our IT 
modernization--and you will notice that Copyright is mentioned 
quite a bit in that--that we are taking advantage of technology 
as much as we can.
    Senator Murphy. Can the backlog be solved purely through 
technology or is there a personnel issue here that exists 
regardless of how fast you move technology?
    Dr. Hayden. Well, there is in the request this year a 
number of staff that are requested to help with the backlog, 
and that is to address that. So there is still a human 
component.
    And, in fact, when we look at the progress that has been 
made with Patent and Trademark, there are specific aspects of 
registering for copyright that require things like a wet 
signature. There are certain things that cannot, right now, be 
aided by technology as we look at the processes.
    So some of that I mentioned the examiners. For instance, 
they go through a period of time depending on what is being 
submitted to be copyrighted. They have to determine is it a 
copyrightable item from wallpaper to books? Books, for 
instance, are much easier.
    So the examiner, in being trained, that is the human 
capital part of determining and so that cannot necessarily 
translate into the technology taking over that part. But not 
having to have paper applications, being able to have certain 
formats submitted electronically would aid quite a bit, and 
being able to review things electronically.
    So that is where we are looking. Where in the process can 
we modernize and use technology?
    Senator Murphy. Thank you.
    Thank you, Mr. Chair.
    Senator Lankford. Senator Van Hollen, would you like to ask 
questions of either of our guests?

                          CRS STAFFING LEVELS

    Senator Van Hollen. Thank you, Mr. Chairman.
    It is great to join you and Senator Murphy. And welcome to 
both of you.
    Dr. Hayden, we are very proud of you in the State of 
Maryland and your service at the Enoch Pratt Library System, 
and the modernization that you brought to that, and the efforts 
you had to bring digitizing. So thank you for taking those 
efforts to the Library of Congress.
    I have a question with respect to the Congressional 
Research Service, which I think Members of Congress on a 
bipartisan basis agree is a really important service where your 
nonpartisan expert analysts provide information to Members of 
Congress.
    In your budget, you note that staffing levels at CRS have 
declined by almost 12 percent since the year 2010. You are 
requesting $745,000 for eight additional staff members.
    Can you talk about the impact of declining staff at CRS on 
their ability to provide work requested by Congress, and 
exactly how you determine this need for an additional eight?
    Dr. Hayden. Thank you for mentioning the decline in the 
staffing for CRS over at least a 10-year period. From an all 
time high of over 600 to now 580 or so that are a mixture of 
subject specialists, all types of staff members.
    Ninety percent of the CRS budget is made up of the staff 
that I have often called ``the special forces'' for Congress; a 
topnotch research and reference group.
    And so looking at how to keep up with and maintain that 
quality of service that CRS is known for from the basic 
answering of questions from staff and members as soon as 
possible, to producing in depth analysis and reports has been 
challenging.
    The request is for eight junior analysts. We are looking 
also at succession planning in that they would have about a 3-
year period to learn from other analysts, but be almost like 
SWAT teams.
    So, for instance, if healthcare, when things are being 
discussed and needed by Congress that these people will be 
flexible. So that is one way of looking at, and trying to 
cover, and maintain the service.
    The IT request for CRS that I talked about making sure they 
have the latest technology to be able to respond quickly to 
staff and to not have to spend their time, as they are doing 
now with this older system, working with the system, which does 
not provide for them. I have to just say it is clunky.
    So here you have these analysts who are on these timeframes 
that are doing this and they are working with the technology 
system that is 20-years old. We want to at least erase that and 
that is an instance of technology helping the humans to do 
their work and making it faster.
    So those are the types of things that CRS is trying to do. 
They work 24 hours a day. They are, I would say, really 
dedicated.
    Senator Van Hollen. I want to thank you. In my experience, 
the quality of their work has been really great.
    Mr. Ayers, first I want to thank you for the way you and 
your team came together after the tragic death of Matthew 
McClanahan. For my colleagues, we had a Marylander working for 
the Architect of the Capitol who, as you know, was tragically 
killed. I just want to thank you for being there to support the 
family and really the entire Architect of the Capitol family 
coming together after that tragedy. Thank you for that.
    Mr. Ayers. Thank you. Thank you for being part of that.

                         HARRIET TUBMAN STATUE

    Senator Van Hollen. Please keep us posted on how the family 
is doing.
    So you may not be aware of this yet, but my staff has been 
talking to some of the folks in your office about the 
possibility on the horizon of the State of Maryland donating a 
statue of Harriet Tubman, a great Marylander, a great American, 
to the Library of Congress.
    The State of Maryland has created an official State 
commission for the purpose of donating such a statue to the 
Capitol. All the fundraising is going to be done by the State 
commission. They are willing to work with you, the Architect of 
the Capitol and the Joint Committee on the Library, to ensure 
that we follow the regular process and that whatever is 
produced fits here in the Capitol.
    I have introduced legislation to authorize Congress to 
accept the statue and I understand if you have not had a chance 
to look at that. But I wanted to put that on your radar, if it 
is not already, and just ask if you would continue to work with 
me and have your team continue to work with my staff as we 
advance that process.
    Mr. Ayers. I would be happy to. Thank you, Senator. I look 
forward to working with you on that.

                     RUSSELL SENATE OFFICE BUILDING

    Senator Van Hollen. Great. It is a work in progress; 
literally.
    The last thing I just wanted to ask you about was the state 
of the Russell Senate Office Building. As a member who 
represents a lot of people who work in the Capitol and its 
offices, as you know, there has been an ongoing issue with 
respect to the Russell Senate Office Building. Thank you for 
working on the exterior.
    There is an ongoing issue with respect to the resolution of 
Citation 19.
    If you could, just provide us a brief update. And if you 
want to provide a lengthier response in writing, feel free to 
do that.
    Mr. Ayers. I would be happy to. I would be happy to do 
both.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Ayers. Citation 19 from the Office of Compliance 
requires a number of fire and life safety upgrades to the 
Russell Senate Office Building. We have been working with them, 
and a variety of consultants and blue ribbon panels, to find 
the right set of solutions that balance both life safety, as 
well as preservation of this beautiful gem of a building.
    We think now we have reached that solution with the Office 
of Compliance. We do have a verbal agreement on exactly what 
needs to be done.
    We are working on developing a budget and a timeline for 
the 11 Work Elements that need to happen to close out that 
citation. We will present that to the Office of Compliance. I 
am quite sure they will accept it.
    Then we will need to come before the subcommittee to 
request money on some of those work elements at some point in 
the future.
    Senator Van Hollen. Great. Thank you.
    Mr. Ayers. You are welcome.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Senator Lankford. Before we move on to other areas with the 
Architect of the Capitol, I want to be able to come back to a 
couple of issues still with the Library. So we are not done 
yet.
    You and I have spoken before about the employee dispute 
resolution process.
    Dr. Hayden. Yes.

                      EMPLOYEE DISPUTE RESOLUTION

    Senator Lankford. And that previously, this committee and 
subcommittee had made some requests. There was a pilot program 
for employee dispute resolution, however those pilot programs 
were not effective.
    I would like to know what the considerations and thoughts 
are out there for employee resolution and if you are aware of 
any current complaints in the system?
    Dr. Hayden. One of the aspects of my early tenure was to 
establish regular meetings and communication with the Library's 
three unions. They were very involved with reviewing the aspect 
of employee dispute resolution that would include interactions 
with the Office of Compliance.
    So in terms of should there be a pilot on that, they were 
very involved with looking at and comparing the pretty robust 
system that the Library has for employee conflict resolution.
    They were satisfied and that we were able to provide 
opportunities for staff members to have effective resolution. 
So that I take literally their temperature on that, almost on a 
constant basis, but there are meetings with them to see.
    I have had a number, for instance, of employee open houses. 
I have a regular ``Coffee with Carla,'' which is kind of a 
behind the scenes just me and all types of staff members. I 
learn a lot at those coffees, but to really make sure that we 
have an opportunity. We have, of course, at the Library the 
EEOC officer and things like that.
    Senator Lankford. So current practice right now, employees 
can either go through the current Library conflict resolution 
process or they can go to the Office of Compliance, either one, 
and they pick which direction they want to go?
    Dr. Hayden. Most of the employees--from what I understand 
our H.R. director and the unions themselves--see the Library's 
process of conflict resolution to be an option for most of the 
employees.
    Senator Lankford. Right. Which I would assume would work. 
What I am trying to say is they can right now go the other 
route if they choose.
    Dr. Hayden. No, and they also have the opportunity to go 
outside in terms of Federal court or other mechanisms if they 
want. So they have those options.
    [Clerk's Note: This response was updated by the Librarian 
of Congress to reflect the correct information regarding 
employee dispute resolution.]
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                LIBRARY'S LEGISLATIVE LANGUAGE PROPOSALS

    Senator Lankford. You made three legislative language 
proposals and I want to just ask you quickly about those as 
well.
    One allows the Library to be reimbursed for services that 
it already provides including storage, exhibit and training 
fees.
    Another proposal is for the Library to accept gifts beyond 
the monetary gifts currently authorized.
    And a third one deals with allowing the Copyright Office to 
continue to function even during a Government shutdown. Senator 
Murphy and I are going to work together to make sure there are 
no Government shutdowns any more, but if there is a Government 
shutdown, this allows the Office to operate much as the Patent 
and Trademark Office does.
    Do you want to make comments about any of the three of 
those?
    Dr. Hayden. Yes. Basically all three are designed to make 
sure the Library has some flexibility in terms of, for 
instance, the Copyright Office, that request to use at least 20 
percent to make sure that that registration process and their 
operations could continue in the event of any type of 
Government interruption.
    The other two allow the Library to be reimbursed and cover 
basic costs for loaning out exhibits, some of the services that 
they provide that there is a mechanism that they can at least 
cover the basic costs.
    Being able to accept gifts in kind, one way that the 
Library might be able to meet some of the fiscal challenges 
that might lie ahead is to be able to accept some gifts in kind 
in terms off equipment or other things that will help quite a 
bit.
    So it is about recouping basic costs, not over, but just 
the things that we already do and to have some flexibility for 
gifts and then operations.
    Senator Lankford. We have spoken about that before and I do 
not see an initial issue. Obviously, we have to work out the 
accountability portion and the transparency portion of that as 
well.
    Dr. Hayden. Right.
    Senator Lankford. Because at the end of the day, the donors 
also want to know the transparency portion of it, as well as 
the transparency of this subcommittee----
    Dr. Hayden. Very much so.
    Senator Lankford [continuing]. And the appropriated dollars 
and how that fits in.

                   REFRIGERATION PLANT REVITALIZATION

    Mr. Ayers, can we talk a little bit about the power plant 
chiller system replacement? Since it is June and August is 
quickly coming, and we are all aware of what August and July 
feels like in DC.
    Talk a little bit about the process, where we are right 
now, time periods, phases, and such.
    Mr. Ayers. I would be happy to.
    We have nine electric driven chillers at the Capitol Power 
Plant and they make chilled water that is sent out through 
several miles of underground tunnels to all of our buildings 
and others. That is what we use to air condition our buildings.
    We have developed a project to modernize the refrigeration 
plant. We have, with your support, received funding to date to 
replace several of those chillers. We received partial funding 
in 2016 to move onto the next phase, which are two additional 
chillers that date back to the 1970s. In fiscal year 2018, you 
will see the remainder of that phase. If that is funded in 
fiscal year 2018, we will be able to execute that subsequent 
phase and replace those two chillers.
    Senator Lankford. Okay. Walk me through what happens if 
that is not funded in 2018.
    What does that mean if that gets pushed back to 2019?
    Mr. Ayers. Well, for us, it is all about mitigating risk. 
Today, as we go to operate these chillers because you need 
additional capacity for chilled water. Your buildings are 
calling for it.
    You push the start button and that chiller does not start. 
Then you have to begin shedding load in other portions of your 
buildings, and prioritize where you can send chilled water, 
what places you can air condition and what places can you trim 
the load.
    It increases our risk to not be able to provide a 
comfortable working space for the Congress, the Library, the 
Supreme Court, the Capitol Police and others.

                         DATA CENTER RELOCATION

    Senator Lankford. All right. You are also dealing with data 
center relocation efforts. Tell me about the status on that, 
and time periods, and end of the year funding this year versus 
next year, and how that effort is going.
    Mr. Ayers. In our 2017 budget, we did put in money to move 
to the same data center Dr. Hayden was speaking of. But we have 
reconsidered that and brought in a consultant to help us 
develop a business case, what we are calling a sense of reality 
to who we are and what our IT system needs really are.
    We have an IT system of 10 racks. By the end of this year, 
we think it will be down to 6 racks. That is a tiny IT system.
    Senator Lankford. Right.
    Mr. Ayers. We have one of those here on Capitol Hill, and a 
completely redundant system in Virginia. They are active-
active. When one goes down, the other one picks up. You could 
not tell the difference whether you are working from Virginia 
or working from here on Capitol Hill at any given time.
    We do not think we need to move to a Tier 3 data center. We 
just do not have that kind of need. We think we need to move to 
a local data center.
    We have also looked at moving to the cloud, which would 
cost us about $4 million a year. We think moving to a local 
data center where we will lease space among many others will 
cost us $1.2 million or $1.3 million a year and that is 
completely sufficient for our needs.
    I would also offer that we have a complete backup of our 
system in California that we have recently tested. If all of 
our data systems go down, we will be able to restore them with 
our backup system in California. We may lose a day of data, but 
we just do not have the intensity or the risk that many of our 
legislative branch partners that serve you and the House of 
Representatives do.
    We think a much more reasonable approach is adequate for 
us.
    Senator Lankford. Do you feel confident in the security 
protocols in each of those three locations, California, 
Virginia, and here?
    Mr. Ayers. We do, absolutely.

                 CAPITOL BUILDING SMOKE CONTROL SYSTEM

    Senator Lankford. Okay. Let me ask one other quick question 
dealing with the smoke control system. Currently, you are in 
the process now of preparing for that testing.
    I have noticed, as I walk through the Capitol building, 
there are quite a few statues and paintings that have plastic 
all over them.
    Tell me about any updates on that project, and the timing 
for completion. Are we on track?
    Mr. Ayers. I would be happy to.
    It is an interesting project. You look at the grand stairs 
on the east and west end of the Senate Chamber, and the grand 
stairs on the east and west end of the House Chamber. These 
grand stairs are really smoke chimneys and today's building 
codes would prevent you from designing a grand staircase like 
that. In fact, it would enclose it with doorways so that when 
you enter in a stairway, you are free from smoke. We do not 
want to install doorways that would limit those beautiful and 
grand spaces.
    An alternative approach to that is providing an air 
movement system that will clear out the smoke in those stairs 
in the event of a significant fire, evacuate the smoke to allow 
people to exit the building in sufficient time.
    The system it is in, installed, and has been tested and 
run. But to fully commission it, we need a very specific 
temperature and humidity range so that we can run the air 
through that system.
    We have been waiting for that temperature and humidity 
sweet spot since May 1 and we have not hit it yet. My sense is 
we are likely not to hit it until the fall. If we get lucky, we 
will commission the systems earlier. I suspect we are not going 
to be that fortunate.
    Instead, we will take the plastic off of the artwork and 
all of the statues, and wait until the fall to fully commission 
the system. But it will be operational in the meantime.
    Senator Lankford. We have not had a problem with smoke and 
fire in the Capitol before, have we?
    Mr. Ayers. Yes, sir. Once or twice over the years.
    Senator Lankford. We should maybe just station the Capitol 
police and have them watch out for the British on the outside 
of the building and have that as an extra protection as well.

                         RESTAURANT ASSOCIATES

    Let me move to Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Ayers, I want to talk to you about Restaurant 
Associates. I wanted to get an update from you on AOC's 
oversight of the contract.
    Last summer, as everyone here undoubtedly knows, Restaurant 
Associates paid nearly $1 million back pay to more than 600 
current and former employees, and they are dealing with the 
consequences of that at the Department of Labor department 
proceeding at the top of that list.
    Last September, you wrote my predecessor, Senator Schatz, 
committing to some specific steps to improve oversight of 
Restaurant Associates. You committed to assigning additional 
AOC staff to oversee them, conducting regular audits, providing 
training on how to oversee this contract, and improving 
communications with the employees.
    Can you just give a general update on the implementation of 
the steps that you committed to in that letter?
    Mr. Ayers. Yes, sir.
    We have hired additional staff to provide that kind of 
oversight, and we do weekly audits on wage compliance. We 
review payroll documents weekly. We look at the overtime 
numbers weekly. We look at super wages weekly. All of that is 
regularly happening today.
    We brief our congressional stakeholders on that once a 
month. We are working closely with the Department of Labor and 
Restaurant Associates. All of that is happening. We have also 
provided training. Restaurant Associates has stayed in 
compliance with their commitment to the Department of Labor. We 
watch them very carefully on an ongoing basis and they, too, 
are in compliance with their commitments.
    Everything is going well at the moment.
    Senator Murphy. And then changes with respect to improving 
communication with the Restaurant Associates employees. 
Obviously, we only found out about this problem through 
communication with the employees who let us know about the 
reclassification.
    Have we taken steps to improve that dialogue?
    Mr. Ayers. We have, indeed, and Restaurant Associates has 
brought in a bilingual H.R. manager that works full time to 
help address these issues as well.

                          DEFERRED MAINTENANCE

    Senator Murphy. In the vein of the question I asked Dr. 
Hayden about the impact of a potential 13 or 15 percent budget 
cut, might I ask you to just make the case against deferring 
maintenance and deferring some of these big projects to maybe 
find an example of a project whereby waiting ends up costing 
you more?
    You are asking for your backlog to be addressed, which will 
be hard to do even if we are able to push back on the 13 or 15 
percent cuts that are proposed either by budget caps or the 
President's budget.
    But just maybe help us understand what happens when you 
just push off these projects for 5, 10, 20 years?
    Mr. Ayers. I think Dr. Hayden was right in her response to 
that question that with 5 or 6 years of flat budgets--as she 
pointed out and I would certainly agree--that a flat budget is 
a cut.
    We have approximately 3 to 5 percent of our payroll budget 
that goes to COLAs, mandatory price increases and inflationary 
increases for construction materials. A flat budget is a cut 
and we have had that for several years now as part of 
sequestration.
    The net result of this are fewer people and fewer materials 
that enable us to do the day to day maintenance, such as 
repairs to our HVAC systems. There are fewer electricians here 
than there were before to make these 36 buildings operate 
efficiently.
    Less maintenance is going to increase the failure rate of 
our mechanical systems, our steam systems, our air conditioning 
systems. They are going to fail sooner than they would without 
the right day to day maintenance activities. Our bill is going 
to be bigger than it would have otherwise.
    I think the best investment that we can make is fully 
funding the day to day maintenance so that we can stave off the 
costs as long as we possibly can.

                  IMPORTANCE OF HISTORIC PRESERVATION

    Senator Murphy. Lastly, on your list of capital projects, 
you have to balance life and safety needs against projects that 
have more of an historic preservation focus.
    You know of my interest in historic preservation. We have 
been working together on restoring an important piece of 
sculpture in the center of the Hart atrium. I am a believer 
that there is importance and impact in the history of this 
building and that that has to be part and parcel of what we 
help to fund.
    Just make the case, because we could spend all of our money 
on the stuff behind the scenes. But this is one of the world's 
great campuses, and one of the world's great buildings. It 
brings millions of people to Washington every year that spend 
lots of money in and around the building.
    Just make the case for why we should be allocating funding 
for historic preservation side by side with the absolutely 
critical funding that we provide for life and health safety.
    Mr. Ayers. I will make two points on this issue.
    The first is you speak about the millions of people from 
around the world that come here. Just for us at the United 
States Botanic Garden and the Capitol Visitor Center combined, 
it was 3.4 million people last year.
    But what we talk about is that if we make those experiences 
right and inspire them, it is not just 3.4 million because they 
go back home to Connecticut or Oklahoma and tell others. We 
talk often about how to get the ripple effect about what we do 
here.
    My point there is that it has a very big impact, not just 
locally but nationally and internationally.
    Second, as evidence of that, when we restored the Capitol 
dome, you would have thought that we would have received 
negative feedback about taking on a project of nearly $100 
million. Instead, we received hundreds, if not thousands of 
letters and emails from people across the country and across 
the globe about the importance of that work, the importance of 
saving our symbol of democracy, how important it was to them. I 
was so surprised by that. We have never undertaken a project 
that received that kind of public feedback.
    There is a genuine interest, a deep rooted interest by the 
people across this country about these beautiful treasures that 
we have the opportunity to oversee.
    Senator Murphy. You did pretty well on ``60 Minutes''.
    Mr. Ayers. Thank you.
    Senator Murphy. Thank you, Mr. Chairman.

                    FISCAL YEAR 2018 BUDGET OVERVIEW

    Senator Lankford. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    What title should I call you, Mr. Architect? Is it Dr. 
Ayers?
    Mr. Ayers. That would be great. Yes.
    Senator Kennedy. Mr. Architect.
    Mr. Ayers. Thank you, Senator.

                       EMOTIONS OF BUDGET CLIMATE

    Senator Kennedy. And Dr. Hayden, I am sorry I was late. I 
was in another committee.
    I do want to compliment you on the dome renovation. It is 
absolutely extraordinary.
    Are you generally happy with your budget or unhappy, Dr. 
Hayden?
    Dr. Hayden. The fiscal year 2018 allows the Library to 
continue the progress. I thanked the committee, the 
subcommittee, earlier for the fiscal year 2017 appropriation. 
That has allowed us to move forward with modernizing the 
information technology infrastructure. The commitment of this 
subcommittee in particular to, at least, ensure that that 
modernization effort continues is critical to the Library being 
able to move forward.
    When I was confirmed, and part of what I talked about, was 
being able to modernize this treasure----
    Senator Kennedy. Yes, Ma'am.
    Dr. Hayden [continuing]. That the Library has. So the 
fiscal year 2018 request allows us to continue to modernize.
    Senator Kennedy. Yes. But are you happy with it or unhappy?
    Dr. Hayden. Actually, when you ask about my happiness 
level, I have to couch it in the fact that I have been very 
heartened and--I mentioned earlier--inspired by this 
opportunity to open up America's treasure chest. We talk about 
that. And so I continually am gratified with working with this 
staff and the resources.
    Senator Kennedy. Can you make your budget work, I guess, is 
what I am trying to get to?
    Dr. Hayden. We can make it work.
    Senator Kennedy. Okay.
    Dr. Hayden. The staff, and the prior appropriations, and 
what we are requesting this year are very reasonable, and would 
be able to allow us to move forward.
    Senator Kennedy. I appreciate that attitude. It is very 
rare in this place.
    Dr. Hayden. I am a librarian.
    Senator Kennedy. Thank you for that. Thank you for your 
positive attitude, Dr. Hayden.
    Mr. Ayers, can you make your budget work?
    Mr. Ayers. Absolutely, and we are specialists in that.
    But I can, if I may, take the opportunity to answer your 
first question.
    Senator Kennedy. Please. Please do.
    Mr. Ayers. I can sit here and tell you that I am unhappy 
with my budget, and I can recall just 2 or 3 months ago sitting 
with my team as we prepared this budget.
    I have a 30 percent increase that I presented to you today, 
and my team said, ``Mr. Ayers, they are going to kick you out 
of the room.'' And I said, ``Well, they are going to have to do 
that.''
    This is the budget that we think we need. We have a 
responsibility to request it. You have a responsibility to make 
the important decisions and then we have a responsibility to 
make it work. And that is exactly what we will do.
    Senator Kennedy. I appreciate that candid answer. I mean, 
you both know the problem we have. Some people want to ignore 
it. Some people want to just pretend we can just keep borrowing 
and a lot of that is politics.
    I am new to the Senate, but I have been in politics for a 
while. When you say yes every time, people vote for you, but 
that is not leadership.
    Then you know the problem we have. We have a $20 trillion 
debt and we got that debt. It is accumulated deficits. We got 
the annual deficits because we spend more than we take in and 
then we borrow money to fill the hole.
    I do not know how it works in your household, but I cannot 
do that in my household and most Americans cannot. In fact, 
every State has to balance its budget. You can do it for a 
while. I can probably survive and my family, I do not know, 5 
or 6 months if I just took the credit card every month, and 
just kept charging on it, buy anything I want until I hit the 
limit. Go get a new card, hit the limit. Go get a new card. But 
at some point, I cannot do it anymore.
    To be brutally honest, the only difference between this 
place and a drunken sailor is that a drunken sailor stops 
spending when he runs out of money. And we do not.
    The only way I know to do it in a way that serves most 
Americans is to tell them the truth and say to them, ``We have 
a certain amount of money and so, we are going to have to 
prioritize.''
    Now it might be that the Library of Congress and the 
buildings, the beautiful buildings, that you are in charge of, 
Mr. Ayers, and do just a wonderful job managing, it may be that 
they are right at the top of the list. But every body cannot be 
at the top of the list and that is what I hope we are going to 
be struggling with. I do not want to struggle with any of this. 
I wish we had unlimited funds, but we do not.
    If we keep going at the rate we are going, and criticizing 
people because they are trying to help us live within their 
means as if they are some mean, bad person who does not care 
about their follow Americans. It is not productive and that is 
what this is about.
    That is why I ask you. It was not a fair question. I should 
not have said happy or unhappy. I do not blame you. I want to 
hear exactly what you think about your budget, but I also want 
to work with you constructively as long as I am in the Senate 
on how we can help you get what you need with the understanding 
that we have a lot of other needs. We just cannot continue to 
do what we are doing.
    It is great politics for some because a lot of the people 
that are doing all the spending will not be here to have to 
answer when the bills come due. But my children will be here 
and your children and grandchildren.
    So thank you both for your spirit. Thank you.

                         FACILITIES MAINTENANCE

    Senator Lankford. Mr. Ayers, let me ask one more quick 
question.
    The increase that you put in, and we did not throw you out 
of the room with a 30 percent increase. I agree with your 
perspective. You have the responsibility to bring to us what 
you think is needed. We have the responsibility to make the 
decision. We get that role, but let me ask a clarification.
    The $7.5 million of your increase was for facilities 
maintenance. Help me understand that more. What needs to be 
done that is not being done on facilities maintenance that 
would be $7.5 million in additional need?
    Mr. Ayers. It really stems back, Mr. Chairman, to the last 
5 or 6 years of essentially flat budgets. We have been forced 
to realign maintenance money to ensure we have adequate 
personnel to do the work. We think the most important assets we 
have are our employees that do the work day in and day out.
    We have had to realign funds year after year to support our 
existing payroll needs and that has left a deficit of about 
$7.5 million in maintenance money. It results in fewer 
materials and supplies that are necessary to undertake the 
growing list of maintenance work.
    Senator Lankford. Is this work that is undone, or is this 
people, or things that you have put in storage to maintain? I 
am trying to figure out if that $7.5 million was----
    Mr. Ayers. It is all of that.
    Senator Lankford. Is this some of the contract folks or 
some of the people that you have that are on call?
    Mr. Ayers. It is primarily in-house employees that we have 
been unable to replace. Also, materials and the ability to 
repair air conditioning equipment, plumbing equipment, heating 
equipment because of the lack of supplies and the lack of 
materials. We have had to realign that money to keep our 
employees instead.

                      COLLECTION STORAGE MODULE 6

    Senator Lankford. All right. That makes sense. Great.
    Any other questions you have, Senator Murphy?
    Any other statements you all need to make? You have lots of 
pictures you did not get a chance to show, so I want to make 
sure that you get a chance to get out anything that you need us 
to see.
    Mr. Ayers. I would be happy to share some with you.
    Senator Lankford. Whatever you need us to see, otherwise, I 
am about to read a closing statement. So if there is something 
else you need to be able to show us.
    Mr. Ayers. Well, Dr. Hayden and I will do one together and 
that is this one.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  FT. MEADE COLLECTION STORAGE MODULES

    Dr. Hayden. This is to address the Library's storage, and 
continuing storage, and preservation needs. And you see books 
on the floor very nicely stacked, but definitely on the floor. 
The support of Congress to provide the Library with continuing 
storage and preservation capacity is essential.
    Mr. Ayers. This is the reason that we are doing Fort Mead 
Module 5, which will turn over in October. Fort Meade Module 6 
is in our 2018 budget before you today. This is essentially the 
reason that we need to do that.
    Senator Murphy. Where is that? What building is that?
    Mr. Ayers. That is the Thomas Jefferson Building.
    Dr. Hayden. 1897 building. It was not built to handle the 
increase of the Library's collections.
    The Library, as you probably know, is the national library 
for this country and the library of record. In future years, it 
will be the only library, for instance, that might have 
physical copies of particular items and their manuscript 
collection.
    Senator Lankford. Right.
    Dr. Hayden. Thank you.
    Senator Lankford. Module 6, by the way, is it the same 
design as Module 4 and 5? Are you using the same architectural 
drawings and plans and efficiencies there or are those changing 
each time?
    Mr. Ayers. They do not change each time. Essentially, the 
building is the same. There are some efficiencies gained and we 
do a central plant portion. So we are able to make some 
efficiencies, and mechanical, and electrical systems as well.
    Senator Lankford. Okay. I had always heard when you use 
something seven times by the seventh time is when you really 
gain efficiency. So we will see how it comes out pricing for 
Module 7 in the years ahead.
    Any other comments that you want to be able to put on the 
record?
    Dr. Hayden. Just to thank you for your consideration of the 
request.
    Senator Lankford. Thank you.
    Mr. Ayers. Thank you.
    Senator Lankford. As Senator Murphy mentioned before, there 
are a lot of extremely important things to do, and there are a 
lot of people that are involved in this that are very dedicated 
folks that work on it.
    But as Senator Kennedy said as well, part of the struggle 
of this subcommittee, not particularly with this subcommittee, 
but every time there is an increase in spending in one area 
there is a conversation about cancer research in another. There 
is a conversation about roads, and another about national 
defense, and to try to be able to figure out priorities and 
where those need to land. These become very complicated issues 
very, very quickly as we work through this process.
    I appreciate very much both your work on a day to day basis 
and your team. You both have very remarkable teams, but also 
your preparation for this hearing as well, both today and your 
written information.
    The hearing record will remain open for 7 days allowing 
members to submit statements or questions for the record, which 
should be sent to the subcommittee by the close of business on 
Wednesday, June 14, 2017.

                          SUBCOMMITTEE RECESS

    Senator Lankford. The next hearing of the subcommittee will 
be held on Wednesday, June 14, at 11:00 a.m. here in this same 
room, Dirksen 124, and we will hear testimony from Capitol 
police and the Senate Sergeant at Arms regarding their fiscal 
year 2018 budget request for those agencies.
    Until then, thank you very much.
    This hearing is adjourned.
    [Whereupon, at 4:10 p.m., Wednesday, June 7, the 
subcommittee was recessed, to reconvene June 14, at 11:00 
a.m.].
</pre></body></html>
